CERTIFICATE OF SERVICE
NO. TBD
Jon Krakauer
Petitioner(s)
v.
Clayton T. Christian et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JON
KRAKAUER PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Vivian V. Hammill
Commissioner of Higher Education
560 North Park Ave.
Helena, MT 59620-3201
(406) 449-9130
vhammill@montana.edu
Counsel for Clayton T. Christian

David R. Paoli
Paoli Law Firm
P.O. Box 8131
Missoula, MT 59802
(406) 542-3330
davidpaoli@paoli-law.com
Counsel for John Doe

Lucas DeDeus

October 31, 2019
SCP Tracking: Meloy-P.O. Box 1241-Cover White

